NO.

IN THE
SUPREME COURT OF THE UNITED STATES
WILLIAM ALLEN
Petitioner
vs.
CANDICE BATTS and TONY PARKER,

Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PROOF OF SERVICE

 

Thereby certify that an original of the foregoing Motion for Leave to Proceed Jn Forma
Pauperis, Petition for Writ of Certiorari, and Appendix have been sent, via Federal Express, to
Mr. Scott Harris, Clerk, Supreme Court of the United States, One First Street, NE, Room 22,
Washington, D.C. 20543 on this the 9" day of October, 2020, with copies to the following:

John H. Bledsoe, III, Office of the Attorney General of Tennessee, 500 Charlotte Avenue,

Nashville, TN 37202.

SUMTER L. CAMP (BPR #009917)
Assistant Federal Public Defender
Office of the Federal Public Defender
810 Broadway, Suite 200

Nashville, Tennessee 37203-3805
(615) 736-5047
